                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

   Case Number: 109080052                                                                      Page I of I



           We received information regarding improper costs charged to two NSF awards 1 identified in an
           internal audit conducted by a grantee2 • The grantee refunded $316,853 to NSF. After the grantee
           discovered the inappropriate charges, the PI for both awards (Subject)3 was fired and was
           replaced as PIon both awards. Based on our review of the internal audit report and relevant files,
           we determined the Subject misappropriated $8,848 for personal expenses, $915 of which were
           directly charged to the NSF awards at issue.                   .

            We identified several other awards on which the Subject served as PI or co-PI. As a result of our
          . review of those grant files, another grantee4 returned $2,010 to NSF for participant support costs
            that were reallocated without permission from NSF. s

           Based on our concerns regarding the Subject's mismanagement ofNSF funds at hislher previous
           institution, we referred the matter to NSF for adjudication. NSF and the Subject negotiated and
           executed an administrative agreement for one year.6

           This memorandum and the attached administrative agreement between NSF and the Subject
           constitute the case closeout Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                         ADMINISTRATIVE AGREEMENT


       This Agreement is made and entered into by and between the National Science

Foundation (,"NSF")                                           fully resolve issues associated with

the Notice of Proposed Debannent issued by NSF to                            ' t:t ~

Th'eterms offue agreement are as follows:


       1. 	   Preamble

       1.                                                                                             .'~




      2.


       3. 	   As a result of an audit conducted
              determined ihat, in 'October 200                  ~~""U.fi..,=persona1
              eJq>elJl?e.S to (m~ ofthe NSF awards. The inappropriate expenses totaled a
              little less than '$1,000:

      .4. 	   As a resUlt ofthis same a1idit,~etemrined that, beginningin .
                .                           many additional unallowable per~()nal 

              expenses on other~ non-NSF' awards.. In tot&1, 

              that he ~sspent $8,811.21 from-2004-2008. 



      5.      On JUly 25,2008,
              his misconduct. As

                          leave settlement
              reimbursement for the Iilisa;ppropriated funds.
      6.                      r--'-~~~V" ·any   wrongoing..

      7.                                       .....,.."'i"....,'-' misconduct, NSF detemifued that
                                    not presently responsible.
            8, .. Consequently, all August 2, 2GIO, NSF issued to              Notice
                 . ofPropose~ Debarment ("N?tice"), in which NSF proposed to debar.
                 ~for a period of one year.


            9. 	     ali September 1,2010, after reGeiving the '''. nne:,..,
                     pUIposefully stopped working on all NSF-funded research.

            10. 	    fu order to ensure NSF ofms present responSibility,
                     ~grees to take tile remedial actions specified in this Agreement.

            11. 	    NSF has determined iliat, in light of all me facts and cITcutnstances .now
                     available, and the additional actions-                          . agreed to
                     take, as specified in the terms and                                  .adequate
                     a,ssurance exists that                      conduct any fut1).re dealings with
                     the Fedenrl. government                 df<gree ofhonesty and integrity
                     required of a Federal governmen,t co~rocurement program
                     participant and that me debanlient of. . . . . . . is hot necessary at
                     this time to protect Federal govemment interests.


                     NOW THEREFORE,wimom admitting any WrOIigdbing and in ordetto
                     resolve·this matter, the :parties agree as follows: .


            n..      Terms and Conditions
                              ....... _ - ­

            12. 	    Terril: Tills Agreement shan be in effect.tm:til August 31, 2011.

            13. 	   Termination·ofProposedDebarment .l{~Effe~tive
                    upon the execution ofibis Agl:eemen:t, the proposed debarment            oraii'
                    . -s?all be te~ted by NSF.                                    .. .

            14. 	   'Ethics Trainmg: ·By Match 1, 2011
                     ethics training COlJTSe oit the law
                     individual's responsibilities ,as a recipient of

            15.
                     comply With the following terms and conditions for the .....   '-ULLLL"'H


                     Agreement:

                              a. 	 A..ily proposal to NSF on wbic~serves ~ .
                                   either the PrinCipal Investigato~ must note the
                                   existence of this Agreement. ~ust notify
                                  ~f SUCll a proposal Within five bUSiness days of its
                                   submisslOn to NSF.


Initials:
     .--~--.--   ..   -~   . -.   --~-~-- ~   -----_. __ .-   ..   ~~   ..   ~.~.-   .... -<.,




                                                                              h. 	 Any expenditures                           any NSF grant on
                                                                                   which he is the PI must be countersigned or approved by
                                                                                   either his depat1ment supervisor, or someone with
                                                                                   appropriate authority:in the institution's sponsored research
                                                                                   ot grant/contract offices.

                                                                               c. 	 For any NSF grant on whic~is the PI."
                                                                                   _ w i l l be prohlb~e~g c~h-advances
                                                                                    agamst anticipated expenditures. Instead, he'Wlll be
                                                                                    reimbursed for expenses incUlTed after appropr!ate
                                                                                    documentation is provided to NSF.


                                          16.         Reporting:'                    shall submit a written report to NSF withln­
                                                      ~ .                           . of the Agreement. Xu this report,.
                                                      _ s h a l l describe 'the measures he has taken to comply with this
                                                      Agreement. Specifically, each report shall include ,a certification
                                                      concerning the ethics training -completed pursuant to paragraph 1.4 ofthis
                                                      Agreemt41t, 'as well as a description of the 90urse taken. Moreover, in the'
                                                      repo~ _ m u s t identifY any proposal 'submitted tdNSF for
                                                      whiCh~as aPI or co-PI.                                    .              ,


                                              17.      Employment of Excluded Parties~~grees th<¢ifhe
                                                       should go intobusmess fQr hiInseIf ~ dfthls Agreement
                                                       that. he shall ,not JQlowmgly ,hire arcindi vidnal who is suspended or
                                                       debarred or otherwise dedared ineligible for.Fedenli programS to work as
i,
                                                       an agent, tept~senta1ive, or principal, for purpose ofthe perfonnance of'
i                                                      any Feder~ procurement and non-pI.Ocmement award. fu'order to carry
                                                       out the p o ! : i c y , _ h a l l check the Exclud,ed Pru;ti,es List
                                                       System (http:i~hi cennectlo.n with a;nynew hire.

                                                                                                               h,~T
                                                                                               waives and releaSes all claims that he
                                                                                                     rhp'r..

                                                       has or                        agail;lst NSF prior to the date ofthe execution of
                                                       this Agreement, including but not limited to claims agai.r.tst past and
                                                       pre~e¢. officifl,ls aI}.d employees ofNSi;*' in their official ot individual
                                                       capacities.

                                         '19.              .                                Whenrequeste~                                                      

                                                      shall cooperate                , ' . of suspec~                                                          

                                                      involving the actions ofthird partie$. In doing so, however,_

                                                     -'will           not be requ1red to waive any constitutional or legal 

                                                    . protections to which he may 'entitled.            be
                                          20.          Representations:                                               rrelDre:sents'that all information ~upplied
                                                       to NSF by him or                          amnOlrlZe:a representative during the course of
                           Initials:
                          discussions preceding this Agreement are true and accurate to the best of
                          his information and belief. ~derstands that this
                          Agreement is executed on behalf ofNSF in reliance upon the truth and
                          accuracy of all such representations.

              21. 	       No Waiver: Nothing in this Agreement limits NSF or any other Federal
                          agency from initiating administrative actions, including suspension or
                          debarment, should infonnation indicating the propriety of such action
                          come to the attention ofNSF or any other Federal agency.

              22. 	       Breach:   The causes for debarment survive the execution ofthis
                          AgTe€~ml~nt and NSF may iriitiate debarment proceedings against"
                                        these grou;nd;> ifthere is a material bre&ch·ofthis.
                          Agreement. NSF will provid~ written notice                       . iIDY
                                'faHute to meet his obligations under thetemis ofthis Agreement.
                                                 to submit an acceptable plan 'Of COITecti~e action to
                             ,       twenty (20) !;alendar days ofreceipt of such notice, OJ; as
                          o1;herwi~SF) N~F may initiate 'debannen,t prt;)cee9in:gs
                          against""""'"
              23. 	       .Entire Agreement: This Agreement constitutes the entire a,gh~ement
                          betWeen ihe parties and ~upersedes all prior agreements and
                          und~standlligs, whether oral or written, related to the sllbject matter .
                          hereof It can be modifie.d oDly by a written document signed by both
                          parties.
                                                      .                                       .
 .'           24.         Authority of the Unfted States: The provisions of this Agreement.inno
                          way alt¥r or diminish the rights and responsibilities of the United States to
                          catty out its lawful functions in any proper manner.         .
.:,




              25. 	       Severability: In the event that one or more ofthe provisions contained in
                          this Agr~ement snall for any reason be held to be invalid, illegal, or
                          unenforceable in any respect, such invalidity, illegality, or
                          unenfoIceability shall not affect other provisions ofthis Agreement.

              26; 	       Non-Precedential: Tbis Agreement does not have any precedential effect
                          and snall not be used, cited or relie9. upon In future ad:infuistrative or
                          judicial proceedings, tmless necessary to demonstrate that a breach of the
                          Agreement occlllTed.

                  27. 	   Notices: Any notices or infonnationrequired by this Agreement shall be
                          in :writing and-mailed by tegiS1:ereff 'or certified mail, postage prepaid, to
                          NSF as follows:


                                                 Assistant General Counsel
      Initials:
                                  National Science Foundation
                                  4201 Wilson Boulevard, Ste. 1265.
                                  Arlington, VA 22230


     28. 	   Certification: By signature hel'eto,~rtifies that he
             understands the provisions of 18 U.S.C. 1001 are appli9able to the
             statements and representations contained herein.




                                          ·{-t;fct   /Vl{O
                                         Date
.J




     As:sistant General Counsel
     National Science Fomdation
